                       Department of the Interior
                       Office of Inspector General



             AUDIT REPORT



                U.S. Fish and Wildlife Service
             Wildlife and Sport Fish Restoration
              Program Grants Awarded to the
              Commonwealth of Pennsylvania,
                 Fish and Boat Commission,
                            From
             July 1, 2006, Through June 30, 2008




Report No. R-GR-FWS-0003-2009              March 2009
                United States Department of the Interior
                             OFFICE OF INSPECTOR GENERAL
                             12030 Sunrise Valley Drive, Suite 230
                                     Reston, VA 20191

                                                                                    March 3, 2009

                                      AUDIT REPORT
Memorandum

To:        Director
           U.S. Fish and Wildlife Service

From:      Suzanna I. Park
           Director of External Audits

Subject:   Audit on U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration Program
           Grants Awarded to the Commonwealth of Pennsylvania, Fish and Boat Commission,
           From July 1, 2006, Through June 30, 2008 (No. R-GR-FWS-0003-2009)

        This report presents the results of our audit of costs incurred by the Commonwealth of
Pennsylvania (Commonwealth), Fish and Boat Commission (Commission), under grants
awarded by the U.S. Fish and Wildlife Service (FWS). FWS provided the grants to the
Commonwealth under the Wildlife and Sport Fish Restoration Program (the Program). The audit
included claims totaling approximately $30.8 million on 21 grants that were open during
Commonwealth fiscal years (CFYs) ended June 30 of 2007 and 2008. The audit also covered the
Commission’s compliance with applicable laws, regulations, and FWS guidelines, including
those related to the collection and use of fishing license revenues and the reporting of program
income.

       We found that the Commission complied, in general, with applicable grant accounting
and regulatory requirements. However, we identified findings related to inadequate land
management and improper equipment usage rates that were corrected during the course of the
audit.

        We provided Notifications of Potential Findings and Recommendations on our findings
to FWS and the Commission. In their responses, both FWS and the Commission concurred with
the recommendations and the Commission took action to implement them. We determined that
the Commission’s actions were sufficient to classify the recommendations as resolved and
implemented. Therefore, no further response to this audit report is necessary. We list the status
of each recommendation in Appendix 3.

       If you have any questions regarding this report, please contact the audit team leader, Carl
Nelson, or me at 703-487-5345.

cc:   Regional Director, Region 5, U.S. Fish and Wildlife Service
                                               Introduction
Background
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (Acts) 1 established the Wildlife and Sport Fish Restoration Program. Under the Program,
FWS provides grants to States to restore, conserve, manage, and enhance their sport fish and
wildlife resources. The Acts and federal regulations contain provisions and principles on eligible
costs and allow FWS to reimburse States up to 75 percent of the eligible costs incurred under the
grants. The Acts also require that hunting and fishing license revenues be used only for the
administration of the State’s fish and game agency. Finally, federal regulations and FWS
guidance require States to account for any income they earn using grant funds.

Objectives
Our audit objectives were to determine if the Commission:

      •    claimed the costs incurred under the Program grants in accordance with the Acts and
           related regulations, FWS guidelines, and the grant agreements;

      •    used State fishing license revenues solely for fish program activities; and

      •    reported and used program income in accordance with federal regulations.

Scope

Audit work included claims totaling approximately $30.8 million on the 21 grants that were
open during CFYs ended June 30 of 2007 and 2008. We report only on those conditions that
existed during this audit period. We performed our audit at Commission headquarters in
Harrisburg, PA, and visited three regional offices, three fish hatcheries, four boat access areas,
and three lake areas. We performed this audit to supplement, not replace, the audits required by
the Single Audit Act Amendments of 1996 and by Office of Management and Budget Circular
A-133.

Methodology
We performed our audit in accordance with the “Government Auditing Standards” issued by the
Comptroller General of the United States. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We tested records and conducted auditing procedures
as necessary under the circumstances. We believe that the evidence obtained from our tests and

1
    16 U.S.C. §§ 669 and 777, as amended, respectively.


                                                          2
procedures provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Our tests and procedures included:

   •   examining the evidence that supports selected expenditures charged to the grants by the
       Commission;

   •   reviewing transactions related to purchases, direct costs, drawdowns of reimbursements,
       in-kind contributions, and program income;

   •   interviewing Commission employees to ensure that personnel costs charged to the grants
       were supportable;

   •   conducting site visits to inspect equipment and other property;

   •   determining whether the Commission used fishing license revenues solely for
       administration of the Commission; and

   •   determining whether the State passed required legislation assenting to the provisions of
       the Acts.

We also identified the internal controls over transactions recorded in the labor and license fee
accounting systems and tested their operation and reliability. Based on the results of initial
assessments, we assigned a level of risk to these systems and selected a judgmental sample of
transactions recorded in these systems for testing. We did not project the results of the tests to
the total population of recorded transactions or evaluate the economy, efficiency, or effectiveness
of Commission operations.

Prior Audit Coverage
On September 1, 2005, we issued “Audit Report on the U.S. Fish and Wildlife Service Federal
Assistance Grants Administered by the Commonwealth of Pennsylvania, Fish and Boat
Commission from July 1, 2002 through June 30, 2004” (R-GR-FWS-0009-2005). We followed
up on all recommendations in the report and found that the Department of the Interior, Office of
the Assistant Secretary for Policy, Management and Budget considered them to be resolved and
implemented.

We reviewed the Single Audit Reports of the Commonwealth of Pennsylvania and the
Comprehensive Annual Financial Reports (CAFRs) for the fiscal years ended June 30, 2006 and
2007. The Commission’s Sport Fish Restoration Program was not selected as a major program
for review in the Single Audit Reports, and an unqualified opinion was issued in the CAFRs.
The Single Audit Report and the CAFR for 2008 were not available for review at the time of our
audit.




                                                3
                                    Results of Audit

Audit Summary
We found that the Commission complied, in general, with applicable grant agreement provisions
and requirements of the Acts, regulations, and FWS guidance. However, we identified
conditions that resulted in the findings listed below. We discuss the findings in more detail in
the Findings and Recommendations section.

       Inadequate Land Management. The Commission disposed of and granted an easement
       on real property purchased with Program funds without obtaining prior approval from
       FWS.

       Improper Equipment Usage Rates. The Commission calculated equipment usage rates
       inaccurately, resulting in incorrect charges to Program grants for the use of vehicles and
       equipment.

Findings and Recommendations
A.     Inadequate Land Management

       Federal regulations require the Commission to ensure that land acquired with the
       Program funds continues to be used for its original purpose – hunting and fishing. When
       no longer needed, the Commission must request disposition instructions from FWS.
       However, we found two instances where the Commission conceded control of its land
       without obtaining FWS’ prior approval, as required:

           •   At Canonsburg Lake, the Commission conveyed approximately two acres of its
               property to a landowner association after discovering that several landowners had
               encroached on the Commission’s adjacent boating access area. In exchange, the
               landowner association made approximately $27,900 in improvements to the
               boating access area, which exceeded the value of the lost land.

           •   At Beachwood Lake, the Commission granted a no-fee, limited right-of way
               easement to a subdivision, after learning that an unauthorized access road had
               been built across its land. Officials informed us that the Commission still retains
               title to the property and that the easement does not interfere with the purposes for
               which the land was acquired.

       After we brought these examples to the attention of FWS officials, they retroactively
       approved the property disposal and easement. However, failure to obtain approval from
       FWS before taking such actions could result in the use of Program lands for unauthorized
       purposes.



                                                 4
     According to Code of Federal Regulations (50 C.F.R. § 80.14(b)), real property acquired
     or constructed with the Program funds must continue to serve the purpose for which
     acquired or constructed. When such property passes from management control of the
     State fish and wildlife agency, the control must be fully restored to that agency, or the
     real property must be replaced using non-Federal funds not derived from license
     revenues. Furthermore, 43 C.F.R. § 12.71(c) requires the State agency to request
     disposition instructions from the awarding agency when real property is no longer needed
     for its originally authorized purpose.

     In addition, the FWS Service Manual Chapter 522 FW 1.1.15 states that the State fish and
     wildlife agency, as the grantee, is responsible for exercising sufficient control over real
     property to ensure that the property is used for the purpose(s) for which it was acquired.
     If the property is no longer needed nor can no longer serve the purpose for which
     acquired, the State must notify the Regional Director and arrange for disposition.

     These issues arose because the Commission did not have policies and procedures
     requiring its officials to obtain instructions from FWS prior to disposing of or granting
     easements on the Program lands.

     Recommendation

     We recommend that FWS require the Commission to develop policies and procedures to
     ensure that it obtains prior approval from FWS before disposing of or granting easements
     on lands acquired with the Program funds.

     Commission Response

     The Commission concurred with the finding and recommendation. Commission officials
     promulgated a new land management policy that requires FWS’ consent before disposing
     of lands acquired with the Program funds.

     FWS Response

     FWS Regional officials concurred with recommendation and agreed with the actions
     taken by the Commission to resolve and implement the recommendation.

     OIG Comments

     Based on the Commission and FWS responses and actions taken, we consider the
     recommendation resolved and implemented.

B.   Improper Equipment Usage Rates

     The Commission charges the Program grants for the use of equipment and vehicles based
     on rates that it calculates annually, but its methodology for developing these usage rates
     is inaccurate. Specifically, the methodology requires the Commission to determine the


                                              5
        difference between estimated equipment operating costs (developed at the beginning of
        the CFY) and actual costs (determined at the end of the CFY). This difference is known
        as the “under- or over-recovery” and varies from one CFY to the next. Although the
        Commission should apply the under- or over-recovery from only the current CFY to
        calculate the new usage rates, it incorrectly applied the under- or over-recovery from the
        current and prior CFYs. Depending on whether the resultant rate is too high or too low,
        the Program grants could be overcharged or undercharged for equipment and vehicle
        usage. 2

        According to 43 C.F.R. § 12.62, grant funds may only be used for allowable costs of the
        grantee. Furthermore, 2 C.F.R. § 225, Appendix A, Section C(2) (formerly OMB
        Circular A-87) defines a reasonable cost as a cost, in its nature and amount, that does not
        exceed that which would be incurred by a prudent person under the circumstances
        prevailing at the time the decision was made to incur the cost.

        Recommendation

        We recommend that FWS ensure the Commission uses the under- or over-recovery
        amounts from only the current CFY to adjust its equipment usage rates for the following
        CFY.

        Commission Response

        The Commission concurred with the finding and recommendation. Commission officials
        revised their methodology for developing the equipment usage rates and will apply the
        under- or over- recovery amounts from the current CFY only.

        FWS Response

        FWS Regional officials concurred with recommendation and agreed to the actions taken
        by the Commission to resolve and implement the recommendation.

        OIG Comments

        Based on the Commission and FWS responses and the actions taken, we consider the
        recommendation resolved and implemented.




2
 Due to the large number of equipment and vehicle usage rates utilized by the Commission, we were unable to
determine questioned costs resulting from these improper rates.

                                                       6
                                              Appendix 1

PENNSYLVANIA FISH AND BOAT COMMISSION
F INANCIAL SUMMARY OF R EVIEW C OVERAGE
    JULY 1, 2006 THROUGH JUNE 30, 2008


Grant Number   Grant Amount   Claimed Costs
 F-99-D-1          $170,000       $221,691
 F-98-D-1           311,420         312,288
 F-96-D-1           187,600          61,446
 F-74-D-17        5,298,360         882,996
 F-74-D-16        5,591,100      3,918,609
 F-74-D-15        1,662,500         511,653
 F-71-R-18          293,393         277,102
 F-71-R-17          287,640         348,545
 F-69-E-20          498,768         363,750
 F-69-E-19          550,000         682,761
 F-69-E-18          500,000         652,673
 F-61-T-28        1,414,944        953,393.
 F-61-T-27        1,387,200      1,635,379
 F-61-T-26        1,375,000      1,563,670
 F-57-R-31        5,966,279      2,499,342
 F-57-R-29        5,000,000      4,509,519
 F-57-D-30        5,100,000      4,918,976
 F-30-D-45        2,208,000      1,307,144
 F-30-D-44        2,200,000      2,386,191
 F-30-D-43        2,426,667      2,420,463
 F-100-D-1          403,000         403,200
 Totals         $42,831,871    $30,830,791




                    7
                                        Appendix 2

PENNSYLVANIA FISH AND BOAT COMMISSION
            SITES VISITED
              Headquarters

                Harrisburg

             Regional Offices

           Northcentral Region
            Northwest Region
            Southwest Region

             Fish Hatcheries

         Girard (Mission Property)
               Pleasant Gap
                 Tylersville

            Boat Access Areas

               Canonsburg
               Glassworks
              Shades Beach
              Walnut Creek

               Lake Areas

            Canonsburg Lake
           Fairview Gravel Pits
              Lake Somerset




                    8
                                                            Appendix 3

        PENNSYLVANIA FISH AND BOAT COMMISSION
     STATUS OF AUDIT FINDINGS AND RECOMMENDATIONS

RECOMMENDATIONS           STATUS              ACTION REQUIRED

                                             No additional action is
    A and B       Resolved and implemented
                                             required.




                         9
  Report Fraud, Waste, Abuse ,
     and Mismanagement
          Fraud, waste, and abuse in government
          concerns everyone:Office of Inspector
          General staff, Departmental employees,
            and the general public. We actively
          solicit allegations of any inefficient and
            wasteful practices, fraud, and abuse
          related to Departmental or Insular Area
         programs and operations. You can report
             allegations to us in several ways.




By Mail:          U.S. Department of the Interior
                  Office of Inspector General
                  Mail Stop 4428 MIB
                  1849 C Street, NW
                  Washington, D.C. 20240

By Phone          24-Hour Toll Free            800-424-5081
                  Washington Metro Area        703-487-5435

By Fax            703-487-5402

By Internet       www.doioig.gov/hotline
